UNITED STATES POSTAL SERVICE 

OFFICE OF INSPECTOR GENERAL





PROCUREMENT PREQUALIFICATION 

         PROCESS 

              September 30, 1998


       Audit Report Number CA-AR-98-003
Procurement Prequalification Process                                   CA-AR-98-003




                PROCUREMENT PREQUALIFICATION PROCESS

                                TABLE OF CONTENTS
                                                                                      Page
Part I
Executive Summary                                                                      1



Part II
Introduction                                                                           5

Background                                                                             5

Objective                                                                              6

Project Accomplishment                                                                 6

Overall Evaluation                                                                     6

Scope and Methodology                                                                  7

Cut-off Scores for Evaluating Suppliers                                                8

Identification of Prequalified Procurements in Contract Data Systems                   9
Initiatives Relating to Supplier Diversity                                             9

Segregation of Duties                                                                  10

Potential Conflicts of Interest                                                        10

Use of an Outside Firm

    Prequalification Criteria                                                          11 

    Oversight                                                                          12

    Controls to Preserve Sensitive Information                                         12

Recommendations                                                                        13
Management Comments                                                                    14 

Evaluation of Management Comments                                                      15 

Appendix 1
                          EXECUTIVE SUMMARY 


Results in Brief 	   In order to enhance competition and ensure quality performance, it is
                     United States Postal Service (USPS) policy to prequalify commercial
                     suppliers. As early as 1986, the USPS began prequalifying potential
                     suppliers. The prequalification process includes publicizing
                     opportunities and evaluating supplier-specific performance evaluation
                     factors in order to identify suppliers to include on the prequalified list.
                     Suppliers on the prequalified list are then given the opportunity to
                     compete for future USPS purchases.

                     Although USPS began prequalifying suppliers as early as 1986, Major
                     Facilities Purchasing was the primary user of prequalification.
                     Transportation Purchasing and Purchasing and Materials groups only
                     began prequalifying suppliers within the last 2 years. We initiated this
                     audit, in part because of USPS management’s commitment in this
                     area. We also wanted to gain an understanding of the process in an
                     organization that awards approximately $10 billion annually in
                     contracts.

                     The overall objective of our review was to evaluate the
                     prequalification process and determine if the process was fair,
                     objective, and promote competition and integrity within the
                     purchasing operations.

                     •	 Our review disclosed some concerns which, when taken as a
                        whole, jeopardize the integrity of the prequalification process.
                        These concerns, if unaddressed, may also result in suppliers not
                        being treated fairly and objectively. Areas requiring
                        improvements resulted primarily from: the lack of methodology
                        and documentation in support of prequalification planning
                        strategies and decisions; the inability to identify prequalification
                        procurements in the current contract data systems; USPS’
                        approach as it relates to supplier diversity; and the inadequate
                        oversight of outside contractors involved in the prequalification
                        process.

                     USPS management has taken action to improve the prequalification
                     process. For example USPS,

                     •	 recently issued written guidance and revised policies clarifying the
                        prequalification process.
                     •	 established a Prequalification Process Improvement Team to
                        further explore lessons learned and to recommend improvements.
                     •	 is planning to provide training to employees on the
                        prequalification process.

                                            1
                                 Restricted Information
Procurement Prequalification Process 	                                         CA-AR-98-003


                            •	 is developing a handbook on prequalification best practices that
                               will be available to employees.

                            During the course of this audit, we contacted various federal agencies
                            and gathered information from other sources to identify best practices.
                            Based on our review of information gathered, USPS’ process already
                            included many of the prequalification methods used by other agencies.
                            The USPS process appeared to be comparable with other agencies.

                            USPS guidance issued thus far provides only a framework for
                            employees. Although USPS has recently issued written guidance and
                            revised policies clarifying the prequalification process, Purchasing
                            personnel are still left with much discretion in determining how to
                            implement this process. This discretion has resulted in inconsistencies
                            among the various purchasing groups at USPS.

                            Based on the results of our review, we believe USPS management
                            should continue to revise, clarify, and implement procedures that
                            increase uniformity among the three purchasing groups and when
                            using non-USPS employees to conduct portions of the process. We
                            believe this action will enhance the integrity of the process. In
                            addition, we believe improved communication of prequalification
                            success stories would result in improvements among the three
                            purchasing groups overall. Our report contains specific
                            recommendations in these areas.

Recommendations 	 The Vice President, Purchasing and Materials, should direct
                            appropriate USPS personnel to:

                            Recommendation (1) determine the prequalification evaluation
                            criteria, methodology, and approach and identify it in the initial
                            planning documents;

                            Recommendation (2) require that all contract data systems add a
                            field or identifier to track procurements that use prequalification;

                            Recommendation (3) encourage efforts to seek small, minority, and
                            woman-owned businesses, and require contracting officers to better
                            utilize internal and external resources to identify these types of
                            businesses;

                            Recommendation (4) establish an evaluation panel when evaluating
                            potential suppliers;




                                                    2
                                         Restricted Information
Procurement Prequalification Process                                          CA-AR-98-003


                           Recommendation (5) require contracting officers to have non-USPS
                           employees sign declarations indicating that they or their immediate
                           family members have no financial interests in the potential suppliers to
                           be evaluated;

                            Recommendation (6) require that all procurement files be adequately
                            documented in order to support planning concepts and the decisions
                            made throughout the prequalification process;

                            Recommendation (7) standardize the evaluation process and ensure
                            that all potential suppliers for a single procurement are evaluated
                            consistently;

                            Recommendation (8) issue a letter to functional managers reminding
                            them that only designated officials are authorized to obligate USPS to
                            contractual agreements; and

                            Recommendation (9) include appropriate language in outside firms’
                            contracts to hold them accountable for the security of sensitive
                            information.

Summary of                  Management generally concurred with our recommendations and
Management                  appreciated our assessment of the procurement prequalification
                            process. Although we did not make a recommendation to do so,
Comments
                            management did not agree with preestablishing arbitrary cut-off scores
                            for suppliers considered for prequalification. Management believes
                            that they use the evaluation process to objectively review supplier
                            proposals without any preconceptions or numerical limits.

                            Management stated that they will continue efforts to revise and clarify
                            the prequalification process. Although management feels that current
                            policies in the Purchasing Manual (PM) already requires many of our
                            recommendations, they agree that these matters could be further
                            emphasized in some cases. Management is currently drafting a series
                            of handbooks to supplement the PM that will reemphasis our
                            recommendations. In addition, management plans to cover these
                            issues in an upcoming Just-In-Time (JIT) prequalification training
                            session followed by a Purchasing Policies and Programs' electronic
                            news update to all purchasing personnel. Actions planned or taken as
                            well as management's specific concerns are summarized in the
                            applicable section of the report. The full text of management's
                            comments is provided at Appendix 1.




                                                   3
                                        Restricted Information
Procurement Prequalification Process 	                                        CA-AR-98-003



Evaluation of 	             Overall, we believe management's comments are responsive to the
Management's                issues raised in the report. The corrective actions that management
                            has taken or planned in response to our recommendations should
Comments	
                            correct the problems identified.




                                                    4
                                         Restricted Information
Procurement Prequalification Process 	                                                         CA-AR-98-003




Introduction 	                   USPS purchasing is performed through three commodity groups:
                                 Purchasing and Materials; Major Facilities Purchasing; and
                                 Transportation Purchasing. In order to enhance competition and
                                 ensure quality performance, USPS has implemented a policy to
                                 prequalify commercial suppliers. As early as 1986, USPS began
                                 prequalifying potential suppliers. However, Facilities Purchasing was
                                 the major user of prequalification. The Purchasing and Materials and
                                 Transportation Purchasing groups only began prequalifying suppliers
                                 within the last 2 years.

Background 	                     The prequalification process includes publicizing opportunities and
                                 evaluating supplier-specific performance evaluation factors in order to
                                 decide which suppliers to include on the prequalified list. Suppliers
                                 on the prequalified list are then given the opportunity to compete for
                                 future USPS purchases.

                                 According to USPS policy, all qualified suppliers need not be placed
                                 on the prequalified list if the purchase team1 determines (1) that a
                                 smaller group will provide adequate competition or (2) that some
                                 suppliers are considerably more qualified than others, thereby
                                 precluding purchase opportunities for the less qualified. Periodically,
                                 the purchase teams should reassess the suppliers included on a
                                 prequalified list in order to ensure that they remain qualified and
                                 reliable. In addition, the teams may decide to remove a supplier from
                                 a prequalified list if a sound business reason exists. Relevant
                                 purchases need not be competed among all suppliers included on a
                                 prequalified list, but prequalified suppliers must be treated fairly and
                                 periodically given the opportunity to compete for purchases.

                               When evaluating potential suppliers, the contracting officer (CO)
                               selects a technical evaluation panel2 to assess and evaluate prospective
                               suppliers' capabilities and abilities to perform, as conveyed in the
                               prequalification package. After the evaluation panel analyzes the
                               relevant information, the CO determines the most capable suppliers
                               and places them on a prequalification list. When making this decision,
                               the CO must ensure that: (1) all potential prequalified suppliers are




1
  The purchase team is a group of Postal Service internal business partners with an interest in a specific purchase or
series of purchases. In addition to other responsibilities, the contracting officer serves as the business leader of the
purchase team, and directs and oversees the purchase team's efforts from purchase planning to contract closeout.
2
  The evaluation panel analyzes the proposals submitted by the offerors (suppliers) and evaluates them by
comparison with the stated evaluation factors.

                                                           5
                                                Restricted Information
Procurement Prequalification Process 	                                          CA-AR-98-003


                            treated fairly and (2) suppliers are included or excluded based on
                            sound business reasons alone. The CO must also ensure that the files
                            adequately support and document the methods or rationale used in the
                            decision process. Additionally, as part of purchasing planning, CO's
                            must attempt to identify potential conflicts of interest so that they may
                            be avoided or mitigated.

Objectives 
                The overall objective of our review was to evaluate the USPS
                            procurement prequalification process and determine if the process was
                            fair, objective, and promoted competition and integrity within the
                            purchasing operations. Specific objectives included: (1) evaluating
                            the frequency that suppliers are reassessed; (2) determining if
                            suppliers are treated fairly and objectively; (3) determining if enough
                            suppliers are placed on the prequalification list to ensure adequate
                            competition; (4) determining if sensitive business information
                            provided by a supplier is sufficiently protected from disclosure; and
                            (5) identifying best practices and recommending improvements to the
                            USPS process.

Project                     USPS management has taken action to improve the prequalification
Accomplishments             process. For example USPS:

                            •	 recently issued written guidance and revised policies clarifying the
                               prequalification process.
                            •	 Established a Prequalification Process Improvement Team to
                               further explore lessons learned and to recommend improvements.
                            •	 Is planning to provide training to employees on the
                               prequalification process.
                            •	 Is developing a handbook on prequalification best practices that
                               will be available to employees.

                            During the course of this audit we contacted various federal agencies
                            and gathered information from other sources to identify best practices.
                            Based on our review of information gathered, the USPS process
                            already includes many of the prequalification methods used by other
                            agencies. USPS' process appeared to be comparable with other
                            agencies.

Overall                     Despite accomplishments noted, our review disclosed some concerns
Evaluation                  which, when taken as a whole, jeopardizes the integrity of the
                            prequalification process. These concerns, if unaddressed, may also
                            result in potential suppliers not being treated fairly and objectively.

                            We were not able to evaluate the frequency of reassessing suppliers
                            because none were performed for the procurements we reviewed.

                                                    6
                                         Restricted Information
Procurement Prequalification Process 	                                         CA-AR-98-003


                            According to USPS policy, suppliers placed on prequalified lists
                            should be given the opportunity to compete on future purchases.

                            However, all of the procurements we reviewed were for single
                            purchases. In the area of competition, it is our opinion that the USPS
                            obtained adequate competition for the procurements we reviewed. In
                            all cases that we reviewed, USPS prequalified at least three suppliers.
                            However, our review disclosed the lack of methodology and
                            documentation in support of prequalification planning strategies and
                            decisions. Additionally, USPS Purchasing Mangers could not readily
                            identify procurements where prequalifications were used. Our review
                            also disclosed the lack of adequate controls to preserve sensitive
                            information when USPS used an outside firm to conduct
                            prequalification.

                            Although USPS management has issued written guidance and policies
                            on the prequalification process, these documents provide only a
                            framework for purchasing personnel to use. The USPS operated
                            under its Procurement Manual up until January 31, 1997. At that
                            time, USPS issued a revised manual entitled Purchasing Manual. The
                            Procurement Manual contained a general outline relating to
                            prequalification procedures. Although the Purchasing Manual
                            clarifies and expands on those procedures, Purchasing personnel are
                            still left with much discretion in determining how to implement this
                            process. This discretion has resulted not only in the concerns
                            described above, but also in inconsistent practices among the three
                            USPS purchasing groups.

                            Our review also disclosed that the Purchasing and Materials and
                            Transportation Purchasing groups only used the prequalification
                            process within the last 2 years. We believe that this limited
                            experience further contributed to inconsistent practices and other
                            concerns previously noted. We believe USPS management should
                            continue to revise, clarify and implement procedures to increase
                            uniformity (1) among the three purchasing groups and (2) when using
                            non-USPS employees to conduct portions of the process. We believe
                            these actions will enhance the integrity and add value to the overall
                            purchasing process. In addition, we believe improved communication
                            among the three Purchasing groups regarding prequalification data,
                            lessons learned, and success stories would result in overall
                            improvements.

Scope and 	                 To accomplish the audit objectives, we reviewed various USPS
Methodology                 policies and procedures as they related to commercial purchasing and
                            prequalification. We requested USPS management to identify
                            procurements where prequalification was used. In April 1998, the

                                                    7
                                         Restricted Information
Procurement Prequalification Process                                                      CA-AR-98-003


                               three Purchasing groups identified 22 purchasing prequalification
                               procurements with an estimated value in excess of $626 million. We
                               judgmentally selected and reviewed 15 of the 22 purchasing files
                               where prequalification was used during the period October 1, 1996
                               through March 31, 1998.3 Our sample consisted of prequalification
                               files from the three USPS purchasing groups. We tested and validated
                               the prequalification process by reviewing contract files and
                               conducting interviews with Purchasing, Facility, and Transportation
                               officials. In addition, we tested and validated computer-generated
                               data obtained from the Computerized Procurement and Supply System
                               by comparing it with source documentation. Our tests disclosed that
                               the data was sufficiently reliable to support the audit conclusions. We
                               also obtained and reviewed various policies and procedures relating to
                               the prequalification process. Specifically, we reviewed
                               prequalification guidance contained in the USPS Procurement and
                               Purchasing Manuals, USPS Procurement Handbook AS-707, Design
                               and Construction Handbook RE-14 and other documents issued by the
                               Vice President, Purchasing and Materials.

                               This audit was conducted in accordance with generally accepted
                               government auditing standards and included such tests of management
                               controls as deemed necessary. Audit fieldwork was conducted from
                               April through July 1998, at USPS Headquarters and facilities located
                               in Virginia, Tennessee, Pennsylvania, New Jersey, and Illinois.

Cut-off Scores for             Our review disclosed instances where USPS purchasing personnel did
Evaluating                     not identify nor establish a method in advance for determining “cut-
                               off” scores for suppliers considered for prequalification. Instead,
Suppliers
                               officials established a “cut-off” score after the evaluation team scored
                               the individual suppliers and the consensus evaluation was determined.
                               For example, in one procurement, USPS prequalified 12 of 23
                               companies that submitted packages to USPS for evaluation. After
                               evaluating all 23 companies, the project manager for this procurement
                               determined that suppliers with a score of 88 and above would be
                               included on the prequalification list. Thus, only seven of the 12
                               prequalified companies made the prequalification list. Two other
                               contractors had scores of 87 and 84. However, they were not included
                               on the list. Facilities personnel stated they limited the competition to
                               the top seven because prime construction companies would not bid if
                               more than seven contractors were prequalified. We could not confirm
                               this statement.



3
 OIG relied upon USPS staff to identify procurements where pre-qualification was used. USPS staff identified 22
such procurements; of which the OIG determined that three of these procurements did not use the pre-qualification
process.

                                                        8
                                             Restricted Information
Procurement Prequalification Process                                                   CA-AR-98-003


                              Officials also did not establish “cut-off” scores in advance for the
                              following reasons. First, USPS policies did not require that “cut-off”
                              criteria be established in advance. Second, officials had not developed
                              methodology nor criteria for establishing “cut-off” scores in advance.
                              Purchasing personnel also told us that establishing "cut-off" scores
                              after evaluating suppliers affords personnel flexibility in determining
                              what constitutes a competitive range for suppliers.

                              We believe establishing the “rules up-front” lends more credibility to
                              the prequalification process. In addition, such procedures will ensure
                              that all suppliers are treated fairly and will protect the USPS against
                              protests and disputes.

Identification of             USPS purchasing managers could not readily identify procurements
Prequalified                  where prequalifications were used. We requested that purchasing
                              managers and contracting representatives provide us with a listing of
Procurements in
                              all prequalified procurements conducted during the period
Contract Data                 October 1, 1996 through March 31, 1998. Specifically, we requested
Systems                       that information be obtained from the three USPS contract data
                              systems.4 In response to our request, officials were not able to identify
                              procurements from the data systems where prequalifications were
                              used. Instead, the managers had to inquire with individual COs in
                              their purchasing groups in order to compile a list of procurements
                              where prequalification was used.

                              This occurred because the USPS current contract data systems do not
                              have fields or identifiers to tag or track procurements where
                              prequalification was used. The current method of identifying
                              prequalified procurements will become very cumbersome and time
                              consuming in the future as the frequency of prequalifying suppliers
                              increases. In addition, the current method is not always accurate. For
                              example, three of the 22 procurements were incorrectly identified as
                              using the prequalification process.

                              Prequalification is the USPS preferred buying method whenever it is
                              determined to be in the best interest and provide the best value to
                              USPS. In this regard, we believe it is important that prequalified
                              procurements be tracked and shared throughout the purchasing groups.

Initiatives Relating Our review disclosed that in 13 of 15 contract files reviewed the CO
to Supplier          did not take a proactive role during the prequalification phase to
                     identify and encourage small, minority, and women-owned businesses
Diversity
4
 The three USPS contract data systems are: Entire Computerized Procurement and Supply System, (Purchasing and
Materials), Financial Network System Windows, (Facilities) and Highway Contract Support System
(Transportation).

                                                      9
                                           Restricted Information
Procurement Prequalification Process 	                                          CA-AR-98-003


                            to respond to USPS prequalification advertisements. Specifically:

                            •	 purchase teams did not always check with USPS Purchasing
                               Supplier Diversity or other available sources to identify potential
                               suppliers; and
                            •	 the contract files did not document that any market research efforts
                               were taken.

                            This condition occurred because certain purchasing officials believe
                            that past history has indicated that small, minority, and women-owned
                            businesses cannot successfully compete for jobs against larger and
                            more established companies. The officials believe this disadvantage
                            stems from lack of comparable past performance.

                            USPS purchasing officials indicated that they place the responsibility
                            for seeking out small, minority, and women-owned businesses with
                            prime contractors. We did not review the actions of prime contractors
                            designed to encourage contractor diversity, and cannot attest to their
                            actions.

Segregation of              In one of the procurements reviewed, we noted that the CO did not
Duties                      establish a panel to evaluate potential suppliers for prequalification.
                            Instead, the CO exclusively developed the evaluation criteria,
                            reviewed the prequalification submissions, ranked the responses and
                            ultimately decided on which suppliers to prequalify. The CO was
                            allowed to perform all prequalification functions, without the
                            assistance of an evaluation panel. Although there is no clear guidance,
                            the PM discourages the CO from solely performing prequalification
                            functions by stating “the CO must establish an evaluation panel.”

                            When a single individual performs all of the functions relating to
                            prequalification, the integrity and objectivity of the evaluation process
                            is jeopardized. The action of the CO in this procurement effectively
                            eliminated the checks and balances that are critical to an effective
                            system of internal controls.

Potential Conflicts         The CO is the primary person responsible for ensuring that conflicts of
of Interest                 interest do not exist when using consultants or outside firms to
                            conduct prequalifications. The Procurement Manual and Purchasing
                            Manual address this issue in section 1.7.7 “Conflicts of Interest.” The
                            referenced material states that conflicts are not limited to any
                            particular type of purchase, but are likely to occur in contracts
                            involving consultant services. The manuals also state that conflicts of
                            interest are likely to occur when consultants are used to perform or
                            assist in technical evaluations. In addition, Procurement Manual
                            sections 2.1.5.b and 2.1.7.b state that the possibility of conflicts of

                                                   10
                                         Restricted Information
Procurement Prequalification Process 	                                         CA-AR-98-003


                            interest must be addressed in individual procurement plans and when
                            establishing an evaluation panel.

                            Of the 15 contracts we reviewed, consultants were used on evaluation
                            panels in four instances. There was no written evidence to document
                            that these consultants were considered for possible conflicts of
                            interest. Individual procurement plans did not mention anything
                            relating to conflicts of interest.

                            These conditions generally occurred because contracting officials
                            relied on the integrity of individual consultants. Specifically,
                            contracting officials stated that they required all panel members to
                            sign non-disclosure of information statements. Individuals were
                            required to recuse themselves from the process if they identified a
                            Conflict of interest. Contracting officials believed these actions were
                            sufficient to overcome potential conflicts of interest.

                            We believe that requiring consultants to sign nondisclosure statements
                            and recuse themselves from evaluation panels is not sufficient to
                            ensure against potential conflicts of interest. Without a declaration of
                            financial interest or family affiliations, there is no assurance of the
                            absence of a conflict of interest. As a result, the consultants’
                            objectivity and the integrity of the prequalification process become
                            questionable. The contract file should reflect all efforts made to
                            ensure these concerns do not exist in order to protect the process and
                            USPS.

Use of Outside 	            In addition to the foregoing, we also observed concerns relating to the
Firm                        use of an outside firm to perform the prequalification of suppliers.

Prequalification            USPS did not consistently apply the same criteria to all companies
Criteria                    prequalified under a procurement to provide program management
                            support services. Three separate evaluations were performed resulting
                            in 19 suppliers being prequalified for this procurement. An outside
                            firm prequalified the initial six suppliers and USPS employees
                            conducted two in-house evaluations and prequalified the remaining 13
                            suppliers.

                            Although the outside firm provided criteria, members of the USPS
                            evaluation panel elected not to use the same criteria. For example, one
                            of the evaluation factors used by USPS was “financial capabilities.”
                            The outside firm did not use this factor. On this same procurement,
                            one of the outside firm’s evaluation factors was a “proven record.”
                            This was not one of USPS’ evaluation factors. We also noted that the
                            prequalification rating systems used by the two USPS evaluation
                            teams were different. The first team used a pass/fail system.

                                                   11
                                         Restricted Information
Procurement Prequalification Process 	                                                          CA-AR-98-003


                                 Conversely, the second team used a numeric rating system and ranked
                                 suppliers from a score of 45 to 172. Suppliers with a score of 99 to
                                 172 were considered prequalified.

                                 Our review of contract files and discussion with USPS personnel did
                                 not disclose an adequate explanation for why (1) the outside firm and
                                 USPS used different evaluation factors, and why (2) the two in-house
                                 evaluation teams used different scoring systems.

                                 Purchasing personnel stated that the first in-house evaluation was a
                                 “mini evaluation” in which three companies were rated and a decision
                                 was made by functional personnel to use the pass/fail rating system.
                                 We believe consistent evaluation criteria should be used for all
                                 suppliers evaluated.

Oversight 
                      USPS personnel did not provide adequate contract oversight for an
                                 outside firm engaged to conduct a prequalification. Specifically,
                                 USPS Purchasing personnel were not aware of or involved with the
                                 prequalification process used by the outside firm. As a result, USPS
                                 had no assurance that the method used to prequalify suppliers was fair
                                 and objective. The CO who initiated this contract no longer works in
                                 Purchasing and the contract files were not adequately documented to
                                 explain why this occurred. Current Purchasing personnel could not
                                 provide information as to how many suppliers were considered by the
                                 outside firm and how many were disqualified or why.5

                                 In reviewing the files for this procurement, we also observed that an
                                 unauthorized USPS employee signed one of two contract agreements
                                 with the outside firm performing the prequalification. An employee of
                                 a functional entity within the USPS signed the second contract
                                 agreement with the outside firm after the CO signed the first contract.
                                 Purchasing staff could not explain why the functional employee signed
                                 the second contract. We requested an interview with the functional
                                 employee, but were told he was not available during our audit.
                                 Adequate monitoring of the prequalification process will help ensure
                                 that all suppliers are treated fairly and objectively and the integrity of
                                 the process is protected.

Controls To	                     USPS employees are required to sign nondisclosure statements to
Preserve Sensitive               protect suppliers’ sensitive information. Our review disclosed that
                                 USPS personnel did not include a clause in a contract nor implement
Information 	
                                 any other controls to require an outside firm to protect sensitive
                                 information. This occurred because contracting officials relied on the


5
 Personnel at the outside firm stated that during the time of this request, they only had six suppliers that could
provide the service, however; we were not able to confirm this statement.

                                                          12
                                                Restricted Information
Procurement Prequalification Process 	                                         CA-AR-98-003


                            outside firm’s integrity to protect sensitive information from
                            disclosure. USPS personnel stated that they viewed the outside firm
                            as a “trusted third party.”

                            Without including the appropriate contract clauses, outside firms are
                            not held accountable for protecting suppliers’ sensitive information.

Recommendations	 The Vice President, Purchasing and Materials, should direct
                            appropriate USPS personnel to:

                            Recommendation (1) determine the prequalification evaluation
                            criteria, methodology and approach and identify it in the initial
                            planning documents;

                            Recommendation (2) require that all contract data systems add a
                            field or identifier to track procurements that use prequalification;

                            Recommendation (3) encourage efforts to seek small, minority and
                            woman-owned businesses, and require contracting officers to better
                            utilize internal and external resources to identify these types of
                            businesses;

                            Recommendation (4) establish an evaluation panel when evaluating
                            potential suppliers;

                            Recommendation (5) require contracting officers to have non-USPS
                            employees sign declarations indicating that they or their immediate
                            family members have no financial interests in the potential suppliers to
                            be evaluated;

                            Recommendation (6) require that all procurement files be adequately
                            documented in order to support planning concepts and the decisions
                            made throughout the prequalification process;

                            Recommendation (7) standardize the evaluation process and ensure
                            that all potential suppliers for a single procurement are evaluated
                            consistently;

                            Recommendation (8) issue a letter to functional managers reminding
                            them that only designated officials are authorized to obligate USPS to
                            contractual agreements; and




                                                   13
                                         Restricted Information
Procurement Prequalification Process                                            CA-AR-98-003




                            Recommendation (9) include appropriate language in outside firms’
                            contracts to hold them accountable for the security of sensitive
                            information.

Management                  Management generally concurred with our recommendations and
Comments                    appreciated our assessment of the procurement prequalification
                            process. Although we did not make a recommendation to do so,
                            management did not agree with preestablishing arbitrary cut-off scores
                            for suppliers considered for prequalification. Management believes
                            that they use the evaluation process to objectively review supplier
                            proposals, without any preconceptions or numerical limits.

                            Management stated that they will continue efforts to revise and clarify
                            the prequalification process. Although management feels that current
                            policies in the Purchasing Manual (PM) already requires many of our
                            recommendations, they agree that these matters could be further
                            emphasized in some cases. Management is currently drafting a series
                            of handbooks to supplement the PM that will reemphasis our
                            recommendations. In addition, management plans to cover these issues
                            in an upcoming Just-In-Time (JIT) prequalification training session.

                            Management's comments on the recommendations were as follows:

                            Recommendation (1) Management agreed; they plan to share this
                            concern with purchasing managers, and in the upcoming JIT training
                            session. In addition, this will be followed up in a Purchasing Policies
                            and Programs' electronic news update via cc: Mail to all purchasing
                            personnel.

                            Recommendation (2) Management agreed; but, added they will
                            assess the impact of this change on all of their contract data systems to
                            determine the feasibility of implementation.

                            Recommendation (3) Management agreed; they plan to share this
                            concern with purchasing managers, and in the upcoming JIT training
                            session. In addition, this will be followed up in a Purchasing Policies
                            and Programs' electronic news update via cc: Mail to all purchasing
                            personnel.

                            Recommendation (4) Management agreed; they plan to share this
                            concern with purchasing managers in the upcoming JIT training
                            session. In addition, this will be followed up in a Purchasing Policies
                            and Programs' electronic news update via cc: Mail to all purchasing
                            personnel.



                                                  14
                                        Restricted Information
Procurement Prequalification Process 	                                         CA-AR-98-003


                            Recommendation (5) Management agreed; and fully recognizes and
                            understands the importance of this matter. They plan to further
                            emphasize current policy by including additional measures in their
                            handbooks to implement our recommendation.

                            Recommendation (6) Management agreed; they plan to share this
                            concern with purchasing managers, and in the upcoming JIT training
                            session. In addition, this will be followed up in a Purchasing Policies
                            and Programs' electronic news update via cc: Mail to all purchasing
                            personnel.

                            Recommendation (7) Management agreed; they will investigate
                            reemphasizing the issue in their handbooks. In addition, they plan to
                            share this concern with purchasing managers in the upcoming JIT
                            training session. Also, this issue will be followed up in a Purchasing
                            Policies and Programs' electronic news update via cc: Mail to all
                            purchasing personnel.

                            Recommendation (8) Management agreed; they will be updating
                            Management Instruction AS-710-96-6, "Unauthorized Contractual
                            Commitments," to reflect recently updated ratification authority.
                            Management will take this opportunity to reinforce our
                            recommendation.

                            Recommendation (9) Management agreed; they will evaluate
                            reemphasizing the issue in their handbooks. In addition, they plan to
                            share this concern with purchasing managers in the upcoming JIT
                            training session. Also, this issue will be followed up in a Purchasing
                            Policies and Programs' electronic news update via cc: Mail to all
                            purchasing personnel.

                            The full text of management's comments are provided at Appendix 1.
                            Management expects all corrective actions to be completed in 1999.

Evaluation of 	             We believe management's comments are responsive to the issues
Management                  raised in the report. The corrective actions that management has taken
                            or planned in response to our recommendations should correct the
Comments	
                            problems identified.




                                                   15
                                         Restricted Information
Procurement Prequalification Process                            CA-AR-98-003




Major Contributors to This Report Were: 





                                                 16
                                       Restricted Information
